Audit of USAID/Russia’s Monitoring of American
International Health Alliance’s Performance


Audit Report No. B-118-03-002-P

April 10, 2003




      U.S. Agency for International Development
                 Budapest, Hungary
USAID
OFFICE OF INSPECTOR GENERAL

Audit of USAID/Russia’s Monitoring of American
International Health Alliance’s Performance

Audit Report No. B-118-03-002-P

April 9, 2003




      U.S. Agency for International Development
                 Budapest, Hungary
April 9, 2003

MEMORANDUM
FOR:            USAID/Russia Mission Director, Carol Peasley

FROM:           Director of Audit Operations, RIG/Budapest,
                Nathan S. Lokos /s/

SUBJECT:        Audit of USAID/Russia’s Monitoring of American
                International Health Alliance’s Performance
                (Report No. B-118-03-002-P)

This memorandum is our report on the subject audit. In preparing
the report, we considered your comments on the draft report and
included them in their entirety in Appendix II.

This audit was designed to test USAID/Russia’s monitoring of
American International Health Alliance’s (AIHA) performance.
We found that USAID/Russia was adequately monitoring AIHA’s
performance; however, we also identified monitoring and reporting
aspects that could be strengthened. Therefore, this report contains
three recommendations.

We consider that management decisions were made and final
action taken on all three recommendations.

I want to express my sincere appreciation for the cooperation and
courtesy extended to my staff during this audit.




                                                                      1
Table of   Summary of Results                                   3
Contents
           Background                                            3

           Audit Objective                                       5

           Audit Findings                                        5

                  Did the USAID/Russia monitor
                  American International Health
                  Alliance’s performance to ensure that
                  intended results were achieved?

                     USAID/Russia Needs to Obtain and Approve
                     AIHA’s Monitoring and Evaluation Plan      7

                     The Quality of AIHA’s Performance
                     Reporting Should Be Strengthened           9

           Management Comments and Our Evaluation               11

           Appendix I - Scope and Methodology                   12

           Appendix II - Management Comments                    14




                                                                     2
Summary of   This audit was designed to assess the U.S. Agency for International
Results      Development/Russia’s (USAID/Russia or Mission) monitoring of
             American International Health Alliance’s (AIHA) performance.

             We found that USAID/Russia was adequately monitoring AIHA’s
             performance. Moreover, we determined that sites and activities—
             including primary health care clinics and women’s wellness centers
             opened through AIHA and USAID/Russia cooperation— were in
             existence, operating as reported, and staffed by enthusiastic, well-
             trained Russian health professionals (see page 5-7). However, we
             did develop audit findings and make recommendations that
             USAID/Russia should improve its monitoring by:

                  •   Obtaining and approving AIHA’s monitoring and
                      evaluation plan (see pages 7-8).
                  •   Strengthening the quality of data published in AIHA’s
                      reporting of results (see pages 9-10).
             USAID/Russia officials appreciated the careful review and the
             findings associated with this audit and took final action on all
             recommendations.


Background   USAID conducts assistance programs around the world. In order
             to implement these programs, USAID relies on the services of
             large institutional partners (grantees or contractors). Oftentimes,
             the same partner can be found to be implementing simultaneous
             programs in several countries within the same USAID
             geographical region.       One such partner is the American
             International Health Alliance (AIHA). Since 1992, AIHA and
             USAID have collaborated in a public-private partnership between
             American health care providers, educators and leaders to improve
             health care services in 21 nations of Central and Eastern Europe
             (CEE) and the Newly Independent States of the former Soviet
             Union (NIS).

             On September 30, 1998, USAID awarded a basic agreement to
             AIHA and subsequently funded six sub-agreements awarded to
             AIHA under that basic agreement. One of these sub-agreements
             (Cooperative Agreement No. EE-A-00-98-00009-00) awarded
             $14.9 million (Total Estimated Cost) to AIHA to implement the
             U.S./NIS Health Partnership Program in Russia.

             Under this program, AIHA establishes partnerships that are
             voluntary and community-based, in which the U.S. community’s

                                                                               3
                        health-related institutions are paired with similar institutions in
                        communities in the NIS or CEE. AIHA’s Health Partnership
                        Program in Russia is designed to support USAID/Russia’s effort to
                        improve the effectiveness of primary health care services, with
                        special attention to the health of women and children and improving
                        disease prevention and control practices.

                        As of June 2002, AIHA had established nine partnerships in Russia
                        which were implementing activities at numerous sites— including
                        Sakhalin and Khabarovsk in the Russian Far East, former closed
                        nuclear cites such as Sarov and Snezhinsk and the rural central
                        Siberian city of Tomsk, among others.1 During the audit, OIG
                        auditors made site visits throughout Russia to test activities at four
                        partnership locations associated with the cooperative agreement
                        between AIHA and USAID/Russia. (See map below)



                        This map highlights the four Cities with American International
                        Health Alliance sites visited by the OIG audit team: Samara, Tomsk,
                        Khabarovsk, Sakhalin.




                                                                                            Sakhalin
                     Samara                                                         Khabarovsk
                                                    Tomsk




This map highlights the four Cities with American International Health Alliance sites visited by the
OIG audit team.

                        Our audit was limited to evaluating USAID/Russia monitoring of
                        AIHA’s performance in Russia under Cooperative Agreement
                        number EE-A-00-98-00009-00 from September 30, 1998 through
                        June 30, 2002. As of June 30, 2002, USAID/Russia had obligated
                        $12.7 million and disbursed $9.2 million in support for AIHA
                        activities in Russia.
                        1
                         These locations include both areas designated by Russian and U.S. policy
                        makers as regional initiative areas for U.S. Government assistance as well as
                        areas that were priorities for U.S. Government investment.

                                                                                                        4
                  As part of its Fiscal Year 2002 Audit Plan, the USAID Office of
Audit Objective   Inspector General (OIG) included an audit examining USAID’s
                  monitoring of a large institutional partner implementing USAID-
                  funded activities in several countries within the Europe and
                  Eurasia Region. The American International Health Alliance
                  (AIHA) met these criteria.         Accordingly, USAID/Russia’s
                  monitoring of AIHA’s USAID-funded activities was selected for
                  audit. The OIG performed this audit to answer the following
                  objective:

                         Did USAID/Russia monitor American International
                         Health Alliance’s performance to ensure that intended
                         results were achieved?

                  The scope and methodology of this audit are detailed in Appendix I.



Audit Findings    Did USAID/Russia monitor American International Health
                  Alliance’s performance to ensure that intended results were
                  achieved?

                  We found that USAID/Russia was adequately monitoring AIHA’s
                  performance to ensure that intended results were achieved.
                  However, we also determined that USAID/Russia should strengthen
                  its monitoring of AIHA by 1) approving AIHA’s monitoring and
                  evaluation plan and 2) working with AIHA to improve the quality of
                  data published in AIHA’s reporting on results.

                  Nevertheless, USAID/Russia:
                  • assessed possible partnership sites,
                  •   reviewed and approved health partnership work plans, and
                  •   approved the designation of key positions and key personnel.

                  Moreover, the Mission also concurred with all of the underlying
                  health partnerships and participated in AIHA’s health clinic openings
                  and conferences. In our opinion, this monitoring helped to ensure
                  that intended results were being achieved.

                  During the audit, OIG auditors made site visits throughout Russia to
                  test activities at four partnership locations associated with the
                  cooperative agreement between AIHA and USAID/Russia. While
                  on these site visits, we determined that sites and activities— including
                  primary health care clinics and women’s wellness centers opened

                                                                                        5
through AIHA and USAID/Russia cooperation— were in existence,
operating as reported, and staffed by enthusiastic, well-trained
Russian health professionals. (See photographs 1, 2 and 3 below)



OIG Audit Manager, Jacqueline Bell with Women’s Wellness Center
Director and AIHA Program Coordinator in a USAID-AIHA
supported training room in Samara, Russia.




Photo # 1 OIG Audit Manager, Jacqueline Bell with Women’s Wellness
Center Director and AIHA Program Coordinator in a USAID-AIHA
supported training room in Samara, Russia.




Photo # 2 AIHA trained nurses in Korsakov Central Hospital’s
Asthma School on Far Eastern Russia’s Sakhalin Island.




Photo # 2 AIHA trained nurses in Korsakov Central Hospital’s Asthma
School on Far Eastern Russia’s Sakhalin Island.




                                                                      6
Photo 3 Health Professionals in Samara Polyclinic # 15’s newly
established Women’s Wellness Center studying a birthing video as
part of AIHA & USAID sponsored training.




Photo # 3 Health Professionals in Samara Polyclinic # 15’s newly established
Women’s Wellness Center studying a birthing video as part of AIHA &
USAID sponsored training.

We found that the Mission’s monitoring of AIHA’s activities was
generally effective. USAID/Russia staff was well informed about
AIHA’s successes and challenges, had visited most sites, and had a
strong working relationship with the AIHA/Russia staff. However,
as mentioned above, we identified certain monitoring and reporting
elements that could be strengthened. The following sections discuss
these issues in detail.

USAID/Russia Needs to Obtain and Approve
AIHA’s Monitoring and Evaluation Plan

USAID planning guidance, Automated Directives System Section
201.3.4.13, states that managing performance requires access to
useful and timely information. Currently, USAID/Russia receives a
variety of performance information from AIHA, information that we
believe has generally been sufficient to properly manage the
performance of this activity. However, four years into this activity,
USAID/Russia had not yet received and approved AIHA’s final
monitoring and evaluation plan (M & E Plan). Such an approved
M&E plan is required by AIHA’s cooperative agreement.

We believe this situation arose because:

1. Both USAID and AIHA officials knew that extensive monitoring
   and evaluation was taking place, and


                                                                               7
2. AIHA had continually reported that it was developing an M & E
   plan for submission.

In our opinion, USAID/Russia’s approval of AIHA’s M&E plan
would formalize key monitoring elements such as agreed-upon
performance indicators, data collection methodologies, frequency
and reporting requirements— key elements that are important to the
success of USAID activities. Without such an approved plan, we
believe that the Mission faces unnecessary risk to the continued
success of this activity.

Moreover, in the absence of a final approved M&E plan defining
AIHA’s reporting requirements, AIHA has not systematically
reported some performance information which could benefit the
Mission. For example, USAID/Russia was interested in having
AIHA report on the number of new health services provided by its
partnerships. Unfortunately, this data has not been defined and
presented in AIHA’s quarterly reports.

AIHA’s cooperative agreement— EE-A-00-98-0009-00— requires
that a monitoring and evaluation plan be approved by USAID.
Furthermore, both AIHA and USAID/Russia have expressed their
desire to develop and approve a monitoring and evaluation plan.
Nevertheless, although the agreement was signed on September 30,
1998, a final monitoring and evaluation plan had not been approved
four years into this activity. We are making the following
recommendation to address this situation:

       Recommendation No. 1: We recommend that
       USAID/Russia require that the American
       International Health Alliance submit a monitoring
       and evaluation plan for Mission concurrence, as
       soon as possible. This plan should support the
       Mission’s Performance Monitoring Plan and
       incorporate agreed-upon performance measures.

After the conclusion of this audit’s field work, on November 29,
2002, USAID/Russia approved AIHA’s Monitoring and Evaluation
Plan for Russia. In addition, an AIHA/Russia results framework and
specific indicator reference sheets were also produced and approved
that provide detailed indicator definitions, targets, and primary data
sources. Therefore, the OIG considers that final action has been
taken on this recommendation upon issuance of this report.




                                                                    8
The Quality of AIHA’s Performance
Reporting Should be Strengthened

USAID guidance states that results-oriented management relies on
managers informing their decisions with performance information.2
Moreover, this guidance states that sound decisions require accurate,
current and reliable information. However, in testing data in AIHA’s
quarterly report to USAID we found that not all of it was accurate,
consistent and comparable. For example:

•   On Sakhalin Island, in the Far East of Russia, the Korsakov
    Central District Hospital is the main AIHA site for primary
    health care. The partnership’s on-site data coordinator stated that
    he was asked to report the total number of patient visits for
    preventive treatment. However, since the AIHA supported
    facility is a regional hospital, with more curative treatments than
    preventive visits, he reported the preventive visits throughout the
    entire region— rather than such visits specifically made to the
    AIHA supported facility. Consequently, the number of patient
    visits in AIHA’s reporting to USAID was overstated.

•   In the industrial region of Samara, the partnership’s information
    coordinator stated that the statistics reported for patient visits
    were grossly understated. This was attributed to difficulties in
    getting physicians to properly document preventive patient visits.
    Further the coordinator stated that a comparison of patient
    registrations and physician-supplied data revealed that while
    7,000 visits had been registered, data provided by physicians
    reflected only 3,000 visits.

•   Some AIHA partnership sites didn’t report any data or only
    reported partial information. While this was properly disclosed
    in AIHA’s quarterly report, it is further evidence that not all
    reported data is accurate, consistent and comparable.

We believe that this situation primarily arose from AIHA’s
implementation of a new system to collect and report performance
data. As part of this system, AIHA developed and disseminated a
new monthly statistical reporting form as well as extensive data
definitions and instructions for completing this form. However, as
with any new system, additional time and effort must be invested
in fine tuning the collection and reporting of data.

2
  This guidance is found in the USAID Center for Development Information and
Evaluation, Performance Monitoring and Evaluation TIPS No. 12- “Guidelines
for Indicator and Data Quality.”

                                                                          9
In discussing this finding, USAID/Russia officials stated that they
had not used the specific data tested for making decisions. Nor,
according to these officials, was that data passed on to stakeholders
through further USAID reporting. However, AIHA’s quarterly
report includes data for six separate USAID cooperative
agreements with AIHA covering 21 countries and is distributed to
multiple USAID missions. Moreover, AIHA’s report receives
further distribution inside and outside of USAID because it is
posted on AIHA’s website. As a result, unless AIHA’s reporting is
improved, decision makers inside and outside of USAID may face
heightened risk of basing their decisions on unreliable data.
Accordingly, we are making the following recommendations.

       Recommendation No. 2: We recommend that
       USAID/Russia notify American International
       Health Alliance of the problems identified with
       data quality and require that future quarterly
       reporting include consistent and comparable data
       related directly to AIHA’s activity.

       Recommendation No. 3: We recommend that
       USAID/Russia provide guidance to mission staff
       concerning the importance and necessity of testing
       samples of reported data when performing field
       site visits.

In a letter dated March 10, 2003, USAID/Russia’s Director of the
office responsible for this cooperative agreement wrote to the
Executive Director of AIHA. This letter followed up AIHA and
USAID/Russia’s staff discussions with formal notification of the
data quality problems associated with Recommendation No. 2, as
requested by the OIG. Therefore, the OIG considers that final
action has been taken on this recommendation upon issuance of
this report.

On March 7, 2003, USAID/Russia’s director of Program and
Project Development transmitted “Guidance on Testing Reported
Data” to all USAID/Russia’s Activity Managers and Office Chiefs.
This guidance included instructions to test samples of data reported
during site visits, especially data relied upon for performance
indicators, and to document such testing. Further, this guidance
stated that technical office directors were responsible to ensure
activities were monitored and the quality of data is checked.
Therefore, the OIG considers that final action has been taken on
Recommendation No. 3 upon issuance of this report.


                                                                  10
Management       USAID/Russia officials appreciated the careful review and the
Comments and     findings associated with this audit and took final action on all
Our Evaluation   recommendations. Their comments are included verbatim as
                 Appendix II of this report.




                                                                              11
                                                                        Appendix I

Scope and     Scope
Methodology
              The Office of the Regional Inspector General/Budapest conducted an
              audit, in accordance with generally accepted government auditing
              standards, to determine if USAID/Russia monitored American
              International Health Alliance’s (AIHA) performance. Our audit was
              limited to evaluating USAID/Russia monitoring of AIHA’s
              performance in Russia under cooperative agreement number EE-A-
              00-98-00009-00 from September 30, 1998 through June 30, 2002.
              As of June 30, 2002, USAID/Russia had obligated $12.7 million and
              disbursed $9.2 million in support for AIHA activities in Russia. The
              audit was conducted at USAID/Russia and AIHA offices in Moscow,
              Russia, and at four AIHA partnership activity sites in Tomsk,
              Khabarovsk, Sakhalin and Samara, Russia. Our fieldwork was
              performed from August 12, 2002 through September 26, 2002.

              Methodology

              Specifically, the audit objective was to determine if USAID/Russia
              monitored AIHA’s performance to ensure that intended results were
              achieved in Russia. To answer our audit objective we also examined
              the management/internal controls at USAID/Russia, including:

                 1. USAID/Russia’s        strategic   planning,      program
                    implementation and financial documents;
                 2. USAID/Russia’s guidance and internal control assessments
                    required under the Federal Managers’ Financial Integrity
                    Act (FMFIA);
                 3. external evaluations and assessments of USAID/Russia’s
                    program activities; and
                 4. progress and activity reports prepared by USAID/Russia
                    and AIHA officials.

              We also obtained and analyzed criteria applicable to this audit
              contained in:

                   1. ADS Chapters 200, 201, 202, and 203;
                   2. Cooperative agreements EE-A-00-98-00033-00 and EE-
                      A-00-98-00009-00, as amended;
                   3. USAID/Russia Mission Orders; and
                   4. other applicable guidance.



                                                                               12
Finally, we interviewed key officials at USAID/Russia, AIHA, and
intended beneficiaries. We also conducted field trips to selected
activity sites in Russia to observe project implementation, inspect
USAID–funded property and equipment, verify reported
information, and assess the effectiveness of USAID/Russia and
AIHA monitoring of performance and progress towards
accomplishment of program results and strategic objectives. The
four AIHA Partnership activities visited were selected on a
judgmental basis.




                                                                13
                                                                                   Appendix II


Management
Comments


                                                                        March 11, 2003

  TO:            Director of Audit Operations, RIG/Budapest, Nathan S. Lokos

  FROM:          Mission Director, USAID/Russia, Carol Peasley /s/

  SUBJECT:       Response to Draft Audit Report on Audit of USAID/Russia’s
                 Monitoring of American International Health Alliance’s Performance

  The Mission appreciates the careful review and the findings from the audit report on
  USAID/Russia’s monitoring of American International Health Alliance’s (AIHA)
  performance. This audit fully supports our efforts to continue strengthening and
  improving our procedures and systems in monitoring program activities.

  As discussed below, we have taken the final actions mentioned in the audit report for
  audit recommendation numbers 2 and 3. Based upon these actions, we request
  closure of these recommendations upon issuance of the final report. We are also
  providing the following Management Comments regarding the body of the
  Discussion Draft report in order to clarify specific points.

  Management Comments:

  Footnote 1 on page 3 should be revised. The Russian Far East, Tomsk and some of
  the other AIHA sites (e.g., Samara) are Regional Initiative (RI) sites. The formerly
  closed nuclear cities cited, while priorities for USG investment for other reasons, are
  not RI sites.

  We also request that the following sentence on page 5 be modified: “Without such
  an approved plan, we believe that the Mission faces heightened risk to the success of
  this activity.” In fact, the report notes that the monitoring of the program by
  USAID/Russia that occurred in the absence of the approved plan “… helped to
  ensure that intended results were being achieved” (page 4). In addition, the M&E
  plan is a measuring instrument, rather than a guarantor of success of any activity. It
  is also noteworthy that, even in the absence of a finalized M&E plan, the activity in
  fact has been judged successful by the US and Russian partners, the Ministry of
  Health of the Russian Federation, the US Congress, and a panel of external
  evaluators. We would propose the following revision: “Without such an approved
  plan, we believe that the Mission will be less able to scientifically document
  success.”


                                                                                      14
Final Actions taken to close audit recommendations:

Recommendation No. 1:

   We recommend that USAID/Russia require that the American
   International Health Alliance submit a monitoring and evaluation plan for
   Mission concurrence, as soon as possible. This plan should support the
   Mission’s Performance Monitoring Plan and incorporate agreed-upon
   performance measures.

As stated in the draft audit report, the OIG considers final action taken on this audit
recommendation given the additional steps performed by the Mission.

Recommendation No. 2:

   We recommend that USAID/Russia notify American International Health
   Alliance of the problems identified with data quality and require that future
   quarterly reporting include consistent and comparable data related directly
   to AIHA’s activity.

The Mission has notified AIHA, both verbally and per attached memo, of the
problems identified with data quality and that USAID requires future quarterly
reports include consistent and comparable data related to that AIHA’s activity (see
Attachment I).

As the Discussion Draft reports, this is a complex activity due to the indirect
relationships between these particular data and the USAID/Russia program given
AIHA’s status as a regional and country-specific program. We also cannot but agree
with the conclusion made in the Discussion Draft (page 6) that “as with any new
system, additional time and effort must be invested in fine-tuning the collection and
reporting of data.” Based on the results of field review of the RIG auditors, AIHA
agreed to make additional efforts to train and support their staff in order to ensure
the quality of data before reporting it to USAID.

A thorough data quality assessment was also conducted jointly by USAID/Russia
and AIHA during the development of and prior to the final approval of the Russia
Montoring & Evaluation (M&E) Plan. Tools for data collection were carefully
selected and data verification methods were considered. During regular field trips,
USAID/Russia health officials monitor program implementation, and, as part of
routine procedures, check and verify to the extent possible both the qualitative and
quantitative data submitted by AIHA to USAID on a quarterly basis. In all cases
when inconsistencies or inaccuracies are revealed, AIHA is informed and a
clarification is required. (Note: the number of patient visits is not included in
AIHA’s M&E plan for Russia approved by the Mission. It is, however, still part of
AIHA’s NIS-wide strategy, and AIHA reports to USAID on it in the Quarterly and
Annual reports.)

                                                                                    15
In addition, the Mission Health staff conducted a rigorous data quality assessment of
the data reported by the Mission in its Performance Monitoring Plan to ensure
information on our activities is reliable and valid. This review sought to ensure that
the data meet quality criteria and capture the most meaningful achievements of the
health program, including AIHA’s activity.

Based on the above actions, we request a management decision be issued and final
actions taken to close recommendation number 2 be considered by OIG in the final
report.

Recommendation No. 3:

   We recommend that USAID/Russia provide guidance to mission staff
   concerning the importance and necessity of testing samples of reported data
   when performing field site visits..

USAID/Russia recognizes the importance of ensuring that data reported by
implementing partners is in accordance with ADS standards for data quality. A
notice with guidance on testing reported data was sent to the Mission staff
requesting periodic checks during field trips of a sample of the data reported by
implementing partners (Attachment II). The results of these tests should be
documented and kept in project files.

Also, last year the Mission developed the Mission's Guidelines on the Data Quality
Assessment (DQA) procedures that also included sample checklists. Late last year,
the first DQA was completed. Field trips were conducted as necessary in the course
of the DQA process. All reported measurement data used in the annual report (or
other formal reporting to Washington) went through the DQA analysis.

Based on the above actions, we request a management decision be issued and final
actions taken to close recommendation number 3 be considered by OIG in the final
report.

Drafted:       ___ N. Vozianova, SSR/Health
Cleared:       ___ K. Pelzman, SSR/Health
               ___ E. Lawrence, SSR
               ___ C. North, PPD
               ___ J. Redder, OFM
               ___ G. Juste,CO
               ___ J. Jaruzelski, RLA
               ___ M. Stein-Olson, OD




                                                                                   16
